OVERSIGHT OF AIRPORT
      REVENUE
 Federal Aviation Administration

  Report Number: AV-2003-030
  Date Issued: March 20, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Oversight of Airport                     Date:    March 20, 2003
           Revenue, Federal Aviation Administration
           AV-2003-030
  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   JA-10:x60500
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) oversight of airport revenue. Our objective was to
           determine whether FAA’s oversight methods prevent or detect airport revenue
           diversions. We conducted our field work through August 2001, but suspended this
           review after September 11, 2001, in order to address security-related priorities.
           We subsequently updated the data included in this draft report for actions taken
           through September 2002, and provided staff from the Office of the Associate
           Administrator for Airports with an advance copy of this report. Their comments
           have been considered and incorporated into this report as appropriate. Given the
           budget constraints now facing FAA, the results of this report regarding diversions
           of airport funds underscore the need for continued and vigilant oversight of airport
           revenue use.


           RESULTS IN BRIEF
           At a sample of five airport sponsors reviewed, we found approximately
           $40.9 million in potential revenue diversions that were not detected by FAA’s
           primary oversight methods. This amount includes about $39 million that was not
           detected by independent auditors during single audit work, and $1.74 million that
           was not disclosed by airport sponsors in airport financial reports. These amounts
           were not detected because independent auditors of airport sponsors were not
           sufficiently aware of relevant Office of Management and Budget (OMB) guidance
           on auditing airport revenue, and airport sponsors were not adhering to FAA
           policies on requirements for airport financial reports.
                                                                                                               2


Since we completed our field work, the American Institute of Certified Public
Accountants (AICPA) has taken steps to better inform independent auditors about
requirements for reviewing airport revenue use during single audits. For example,
the AICPA’s “Audit and Accounting Guide for Audits of State and Local
Governments” for 2002 includes an expanded section informing independent
auditors that it is necessary to evaluate the airport’s compliance with FAA airport
revenue requirements as part of the financial statement audit.

Since we completed our field work, FAA has also taken steps to improve airport
financial reporting processes. These steps include redesigning financial reporting
forms so they more closely reflect generally accepted accounting principles and
more closely track to the requirements of FAA’s “Final Policy and Procedures
Concerning the Use of Airport Revenue.”

In our opinion, the actions taken by FAA and AICPA should improve FAA’s
ability to detect and prevent airport revenue diversions. The key to success now
lies in implementation and follow-through on the part of FAA and AICPA. Both
FAA and AICPA have expressed commitments to address these important issues.
Also, to ensure that revenue diversions that occurred are resolved, we are
recommending that FAA: (1) verify the status of the $40.9 million in potential
revenue diversions that we identified during this review and seek recoveries as
necessary; and (2) determine if practices that may have led to diversions at the
airports included in this review have been corrected, and if not, take actions to
recover any additional funds that were diverted due to those practices since
completion of our field work.


OBJECTIVE AND SCOPE
Our objective was to determine whether FAA’s oversight methods prevent or
detect airport revenue diversions. To answer our objective, we reviewed airport
financial reports, visited independent auditors, contacted FAA regional and airport
district offices, and reviewed financial records and leases at a sample of
five airport sponsor locations—Allegheny County (Pittsburgh), City of Cleveland,
Miami-Dade County, City of San Antonio, and Wayne County (Detroit).
Exhibit A contains the details of the methodology we used to conduct this review.


BACKGROUND
The Airport and Airways Improvement Act of 1982, as amended and codified in
Title 49, United States Code, Chapter 471, requires all airport sponsors1 receiving

1
    An airport sponsor is generally a public agency (e.g., a city or local authority) that owns the airport.
                                                                                                                       3


Federal assistance to use airport revenues for the capital or operating cost of the
airport. Any other use of airport revenue is considered a revenue diversion.
Examples of common revenue diversions include charges to the airport for
property or services not provided, indirect costs improperly allocated to the
airport, and payments of less than fair market rent for use of airport property.

The Single Audit Act of 1984 established requirements for audits of state and local
governments that administer Federal financial assistance programs. The 1984 Act
was revised by the Single Audit Act Amendments of 1996, which were
implemented through OMB Circular A-133. The Single Audit Act Amendments
require that an audit of an airport sponsor include a review of airport funds
transferred to the sponsor and an opinion on whether these funds were used in
accordance with applicable airport revenue laws.

OMB Circular A-133 includes suggested audit procedures for determining
compliance with its requirements. To aid independent auditors in complying with
the OMB Circular, the AICPA produces an annual reference guide, “Audit Risk
Alerts: Audits of Organizations Receiving Federal Awards: Single Audits
Performed in Accordance with Office of Management and Budget Circular
A-133.”

The Federal Aviation Authorization Act of 1994 requires airport sponsors to
submit annual financial reports. In their reports, sponsors are expected to list in
detail all compensation received for services provided by the airport as well as
property provided to and payments made by the airport to other governmental
units.2 In addition, FAA’s “Final Policy and Procedures Concerning the Use of
Airport Revenue” (Final Policy), dated February 16, 1999, requires airport
sponsors to charge fair market commercial rates for non-aeronautical uses of
airport property in order to minimize the airports’ reliance on Federal funds and
local tax revenues. The Final Policy also requires that costs allocated to an airport
by a sponsor’s cost allocation plan be similarly billed to other sponsor departments
and not be disproportionately billed to the airport.


RESULTS AND RECOMMENDATIONS
FAA relies on single audits performed by independent auditors and airport
financial reports submitted by airport sponsors to evaluate sponsor compliance
with revenue use requirements. However, at the five airport sponsors we sampled,
we found a total of $40.9 million in potential diversions that were not detected by
those methods. This amount includes about $39 million that was not detected by


2
    Other governmental units include sponsor non-airport departments or city, county, state and Federal governments.
                                                                                   4


independent auditors during single audit work, and $1.74 million that was not
disclosed by airport sponsors in airport financial reports.


Single Audits Did Not Identify $39 Million in Potential Diversions
At the five airports in our sample, we found about $39 million in potential revenue
diversions that were not identified by independent auditors in single audits at those
locations. We found a total of $37.4 million in potential revenue diversions at four
of the five locations resulting from unsupported, ineligible and duplicate payments
to airport sponsors. At one of the four locations, we also found $1.74 million of
ineligible payments to non-airport organizations.

The following are examples of the potential diversions we found that were not
identified during single audits. (Exhibits B through F contain details regarding the
potential revenue diversions we identified at each airport sponsor.)

• Accounting and posting errors by the City of Cleveland and airport staff
  resulted in overpayments to the sponsor of $53,900 and duplicate payments to
  the City’s Division of Water totaling $11,900. Although these amounts are not
  material, the potential for significant diversions is present due to inadequate
  internal controls, which failed to detect these errors. The City’s independent
  auditor reported in its 1999 Report to Management that controls over airport
  revenue should be strengthened, but action had not been taken before we
  completed our field work in 2001.

• The City of San Antonio inappropriately allocated $166,000 to the airport for
  indirect costs that should have been allocated to other city services. This
  included $60,000 for an Assistant City Manager’s salary that was directly
  billed to the airport.

• The Miami-Dade County Aviation Department paid Miami-Dade County for
  $31.4 million in excess and unsupported costs through an indirect cost
  allocation plan. An additional $6.2 million of unsupported or ineligible direct
  costs were charged to the airport by Miami-Dade County, including
  $4.55 million for unsupported administrative and service fees from various
  sponsor departments, and $667,000 for the Florida Department of
  Transportation for design work on a State road. We also question $1 million
  for community or promotional expenses for nine non-sponsor organizations
  such as the Miami Conference on the Caribbean and the Orange Bowl Parade.
  These activities do not appear to be related to the airport, or the airport’s share
  of the costs appears excessive.
                                                                                  5


• Wayne County allocated $967,000 in indirect costs to Detroit Metropolitan
  Airport and billed the airport directly for the same services. The sponsor also
  erroneously allocated $285,000 in miscellaneous equipment charges to the
  airport.

Four of Five Airports We Sampled Submitted Incomplete Reports
to FAA
At four of the five airports we sampled, we found over $1.74 million in potential
revenue diversions that were not disclosed in financial reports the airport sponsors
submitted to FAA. Submitting incomplete and inaccurate financial reports to FAA
undermines the agency’s ability to detect revenue diversions through the review
process. The following are potential revenue diversions we identified that were
not disclosed in airport financial reports.

   • Allegheny County, sponsor of the Pittsburgh airport, failed to report leases
     with five government agencies. One of these leases was with the
     U.S. Army, which leased approximately 25 acres of airport land at
     76 percent below fair market value. This resulted in a loss of $252,000 of
     airport revenue in fiscal years (FYs) 1999 and 2000.

   • The City of Cleveland’s report to FAA properly disclosed that the City’s
     Division of Research, Development and Planning was leasing airport
     property. However, while Cleveland’s report to FAA showed that the
     division paid rent, the report did not show that the revenue was
     significantly less than the total amount due. The division paid only
     $89,808 of $249,465 owed to the airport from January 1999 through June
     2001. This resulted in an unreported loss of almost $160,000.

   • The City of San Antonio did not include all required disclosures in its
     airport financial reports, including compensation received from the
     U.S. Postal Service, Federal Aviation Administration, and the Texas
     Department of Transportation. In addition, the airport reported leasing
     airport facilities to the City, but we found that the leases were at 50 percent
     of fair market value. This resulted in a $333,000 loss of airport revenue
     from FYs 1995 through 2000.

   • In its reports, Miami-Dade County, the sponsor of Miami International
     Airport, did not disclose compensation received for services and property
     provided to numerous other government agencies, including the
     U.S. Department of Justice, U.S. Department of the Treasury, and the
     Federal Aviation Administration. Moreover, Miami-Dade County did not
     disclose that it leased two airport facilities to a County department at
                                                                                 6


      92 percent and 67 percent below fair market value, resulting in a loss of
      $995,000 of airport revenue over a 6-year period.

Many Independent Auditors Were Unaware of Relevant OMB
Guidance and FAA Policies
We discussed our findings with independent auditors of airport sponsors and
found that many were not sufficiently aware of the relevant OMB guidance or
FAA’s Final Policy concerning the use of airport revenue. For instance, at
one independent audit firm, neither the partner nor the manager for an audit of an
airport sponsor was familiar with FAA’s Final Policy. In addition, a number of
auditors thought they were only required to review airport sponsor costs allocated
to Airport Improvement Program grants. They were not aware they should review
sponsor costs allocated to the airports, or provide an opinion on whether funds
were used in accordance with applicable airport revenue laws.

In August 2001, we discussed our concerns about the single audit reports and
independent audits with representatives from FAA, OMB, and the AICPA. FAA
and the AICPA agreed to work with airport sponsors and independent auditors to
ensure that requirements for reviewing airport revenue use are met for future
single audits.

Since that meeting, the AICPA has taken steps to inform independent auditors
about the requirements for reviewing airport revenue. For instance, the AICPA’s
“Audit and Accounting Guide for Audits of State and Local Governments”
(GASB 34) for 2002 includes an expanded section informing the single auditor
that “it is necessary to evaluate the airport’s compliance with [FAA] requirements
as part of the financial statement audit.”

In addition, we recently provided the AICPA with comments to improve the
revenue diversion section of its “Audit Risk Alerts – Single Audits 2002,” which
the AICPA subsequently adopted and published. These comments included
notification to single auditors that “airport revenue expenditures are not the same
as grant expenditures” and that “airport expenditure reviews should consider high
risk areas for diversion, such as payments to airport sponsors and other
governmental entities.” The Office of Inspector General also receives single audit
reports with Department of Transportation-related findings. As part of our
ongoing Single Audit responsibilities, we are focusing additional quality assurance
efforts on public accounting firms performing single audits of FAA grantees.

FAA has taken steps to improve airport financial reporting processes. These
include redesigning financial reporting forms so they more closely reflect
generally accepted accounting standards and more closely track to the
requirements of FAA’s Final Policy. In our opinion, the actions taken by the
                                                                                    7


AICPA and FAA to improve existing oversight tools should help FAA detect and
prevent airport revenue diversions. The key to success now lies in implementation
and follow-through. Both FAA and AICPA have expressed commitments to
address these important issues.


RECOMMENDATIONS
To ensure that revenue diversions that occurred are addressed, and practices that
led to diversions are corrected, we recommend that FAA:

1.    Verify the current status of $40.9 million in potential revenue diversions
      that we identified during this review and, as necessary, seek recoveries of:
      − $252,000 identified at Allegheny County (sponsor of Pittsburgh
          International and Allegheny County Airports),
      − $225,428 identified at the City of Cleveland (sponsor of Cleveland
          Hopkins International and Burke Lakefront Airports),
      − $498,808 identified at the City of San Antonio (sponsor of San Antonio
          International and Stinson Field Airports),
      − $38,710,289 identified at Miami-Dade County (sponsor of Miami
          International Airport), and
      − $1,251,564 identified at Wayne County (sponsor of Detroit
          Metropolitan Wayne County Airport).

2.    Determine if practices that may have led to diversions at the airports
      included in this review have been corrected, and if not, take actions to
      recover any additional funds that were diverted due to those practices since
      completion of our field work.

MANAGEMENT COMMENTS
On January 17, 2003, we provided a draft of this report to the Office of the
Assistant Administrator for Financial Services/Chief Financial Officer to obtain
official comments. We received FAA’s written response on January 31, 2003, and
have included a copy as an appendix to this report. In its response, FAA
concurred with both our recommendations, stating that it will conduct
investigations into the potential revenue diversions we identified and seek
recoveries as necessary. FAA also agreed to expand the scope of its investigation
to include the time period between the audit report and completion of our field
work.

In addition, FAA stated that it generally agreed with our interpretation of the
revenue use requirements as discussed in the report with two exceptions. First, at
                                                                                   8


Allegheny County, FAA states that under its policy, leasing for nonaeronautical
purposes at below fair market value to an entity other than the airport sponsor is
not considered a revenue diversion, but rather a potential violation of a sponsor’s
Federal obligation to be as self-sustaining as possible. Second, at San Antonio,
FAA states that one of the airport properties may have been leased for aeronautical
purposes (i.e., a helicopter station), and FAA policy does not require that an
airport obtain fair market value for aeronautical use of airport property.
Nevertheless, FAA agreed that it needs to look at issues of self-sustaining rate
structure and revenue use for all of the leases cited in our report.


AUDIT RESPONSE
We agree with FAA’s plan to look at rate structure and revenue use issues for the
leases included in our report. Because FAA policy requires airports to seek to
become self-sustaining, it is incumbent on an airport to avoid entering into leases
that significantly subsidize a tenant’s use of airport property. For instance, at
Allegheny County, the U.S. Army’s below fair market value lease resulted in a
2-year loss to the airport of about $252,000 in potential revenue. Likewise, the
San Antonio city police department rents a helicopter station at 50 percent of fair
market value, a potential 3-year revenue loss to the airport of about $36,000.

Accordingly, FAA’s plan to investigate below fair market value leasing
arrangements at Allegheny County, San Antonio, and the other airports included
in this report is necessary. Whether FAA conducts these investigations as
potential violations of its revenue diversion or self-sustainment policies is not the
issue. FAA needs to and has agreed to review leasing practices at these airports to
ensure that rents being paid are reasonable and that lost revenues are recovered.


ACTION REQUIRED
The corrective actions planned by FAA are reasonable and meet the intent of our
recommendations. FAA has also provided a planned completion date of
December 31, 2003, to complete its investigation at each location and initiate
corrective action as necessary. Although the recommendations are resolved, under
follow-up requirements of Department of Transportation Order 8000.1C, both
recommendations will remain open pending the completion of FAA’s
investigation and the outcome of any corrective actions taken. Please advise us on
amounts recovered as a result of your investigation.
                                                                                9


We appreciate the cooperation and assistance provided by your staff during the
review. If you have any questions or need further assistance, please contact me at
(202) 366-1992, or David A. Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                        #
                                                                                10




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted the review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts.

We conducted our field work during the period September 2000 through
August 2002. We suspended the review for some time after September 11, 2001,
in order to address security-related priorities. We subsequently updated the data
included in this report for actions taken through September 2002.

The review was performed at FAA’s Office of Airport Safety and Standards in
Washington, D.C.; three Regional Airport Division Offices; and four Airport
District Offices. We visited five airport sponsors: Allegheny County (Pittsburgh),
City of Cleveland, Miami-Dade County, City of San Antonio, and Wayne
County (Detroit). These locations were selected based on (1) FAA’s request, (2) a
history of prior revenue diversions at the location, or (3) indications that single
audit work at the location had not adequately reviewed potential revenue
diversions. In addition, we visited 11 audit organizations, which included public
accounting firms, city controllers, and state auditors.

Our objective was to determine whether FAA’s oversight methods prevent or
detect airport revenue diversions. To make this determination, we (1) identified
FAA’s methods for preventing or detecting revenue diversions, (2) reviewed
airport financial reports, (3) reviewed independent auditors’ working papers, and
(4) conducted reviews at the five selected airport sponsors to determine whether
airport-generated revenues were used in accordance with Federal regulations. Our
review covered fiscal years 1999 through 2000, but was expanded to prior and
subsequent periods as necessary.

During the review, we met with representatives from the Air Transport
Association of America, the American Institute of Certified Public Accountants,
and the Office of Management and Budget.




Exhibit A. Scope and Methodology
                                                                                  11




EXHIBIT B. POTENTIAL AIRPORT REVENUE
DIVERSIONS, ALLEGHENY COUNTY

      Sponsor of Pittsburgh International Airport and Allegheny County Airport

Issues                                              FYs       Dollars Diverted
Airport Financial Reports                           1999-2000     Procedural
Use of Airport Property                             1999-2000      $252,000
Payments to Sponsor/Other Governments
--Direct Payments                                   1999-2000                $0
--Cost Allocation Plan—Indirect Payments            1999-2000                $0
Promotional Expenses                                1999-2000                $0
   Total                                                               $252,000

AIRPORT FINANCIAL REPORTS
Allegheny County did not include in its airport financial reports all required
disclosures including compensation received for services and property provided to
the U.S. Postal Service, U.S. Army, Findlay Township, Moon Township, and
Commonwealth of Pennsylvania.


AIRPORT LEASES
Allegheny County leased approximately 25 acres of airport land to the U.S. Army
at 76 percent below fair market value. As a result, the airports lost $252,000 in
uncollected revenue in fiscal years 1999 and 2000.




Exhibit B. Potential Airport Revenue Diversions, Allegheny County
                                                                                  12




EXHIBIT C. POTENTIAL AIRPORT REVENUE
DIVERSIONS, CITY OF CLEVELAND
Sponsor of Cleveland Hopkins International Airport and Burke Lakefront Airport

Issues                                              FYs       Dollars Diverted
Airport Financial Reports                           1999-2000     Procedural
Use of Airport Property                             1999-2001      $159,657
Payments to Sponsor/Other Governments
--Direct Payments                                   1998-2000           $65,771
--Cost Allocation Plan—Indirect Costs               1999-2000                $0
Promotional Expenses                                1999-2000                $0
   Total                                                               $225,428
AIRPORT FINANCIAL REPORTS
The City of Cleveland did not include all required disclosures, including
compensation received for services and property provided to the U.S. Postal
Service, Federal Aviation Administration, U.S. Department of Commerce, and
Regional Transit Authority. In response to our audit, the sponsor revised its
FY 2000 financial reports to include the required information.

AIRPORT LEASES
The City’s Division of Research, Development, and Planning (Division) did not
pay the full rental rate stipulated in the lease agreement. It paid only $89,808 of
$249,465 due from January 1999 through June 2001. As a result, the Division
owed the airport $159,657 in overdue rent.

DIRECT PAYMENTS—POSTING ERRORS
During our testing of expenditure transactions, we identified a number of posting
and accounting errors that resulted in overpayments totaling $53,876 to the
sponsor. For example, a radio communications service charge of $3,316 was
posted as $33,163, and charges for air traffic controllers’ service totaling $617,980
from May 1998 through June 1999 were posted as $637,980.

DIRECT PAYMENTS—DOUBLE PAYMENTS
We found the airports overpaid $11,895 to the City’s Division of Water due to
double payments for the same invoices. Because the initial payments were not
made in a timely manner, the airports paid the delinquent bills again.



Exhibit C. Potential Airport Revenue Diversions, City of Cleveland
                                                                                 13




EXHIBIT D. POTENTIAL AIRPORT REVENUE
DIVERSIONS, CITY OF SAN ANTONIO
     Sponsor of San Antonio International Airport and Stinson Field Airport


Issues                                             FYs       Dollars Diverted
Airport Financial Reports                          1999-2000     Procedural
Use of Airport Property                            1995-2000      $333,148
Payments to Sponsor/Other Governments
--Direct Payments                                  1999-2000                $0
--Indirect Costs                                   1999-2000          $165,660
Promotional Expenses                               1999-2000                $0
    Total                                                             $498,808

AIRPORT FINANCIAL REPORTS
The City of San Antonio did not include all required disclosures in its airport
financial reports, including compensation received for services and property
provided to the U.S. Postal Service, Federal Aviation Administration, and Texas
Department of Transportation (TxDOT).


AIRPORT LEASES
The City of San Antonio leased airport properties to the City’s Service Center,
Public Works Shops, and Helicopter Station at the Community Purpose Rental
Rate, which is 50 percent of the market rental rate. However, these entities did not
meet the community purposes provision. FAA’s policy prohibits these rentals at
less than fair market value. As a result, the sponsor diverted $333,148 in
undercharged rent from FYs 1995 through 2000.


INDIRECT COSTS
The City of San Antonio overcharged the airport by $165,660 for indirect costs.
This included overcharges of $105,309 for costs accrued at other city service units
and charged to the airport, and double-billing the airport $60,351 in other indirect
costs in fiscal years 1999 and 2000.




Exhibit D. Potential Airport Revenue Diversions, City of San Antonio
                                                                                14




EXHIBIT E. POTENTIAL AIRPORT REVENUE
DIVERSIONS, MIAMI-DADE COUNTY
                     Sponsor of Miami International Airport


Issues                                            FYs       Dollars Diverted
Airport Financial Reports                         1999-2000     Procedural
Use of Airport Property                           1995-2000      $995,178
Payments to Sponsor/Other Governments
--Direct Payments                                 1999-2000        $5,214,894
--Cost Allocation Plans—Indirect                  1995-2000       $31,446,517
Promotional Expenses                              1999-2000        $1,053,700
   Total                                                          $38,710,289

AIRPORT FINANCIAL REPORTS
Miami-Dade County did not include in its financial reports all required
disclosures, including compensation received for services and property provided to
the U.S. Postal Service, U.S. Department of Justice, U.S. Department of the
Treasury, Federal Aviation Administration, Florida Department of Labor and
Employment, Florida Department of Agriculture and Consumer Protection, Miami
Water and Sewer Department, and five Dade County departments including
Department of Corrections and Rehabilitation.


AIRPORT LEASES
Miami-Dade County leased two airport properties to the County Department of
Corrections and Rehabilitation (the Department) at substantially below fair market
value. The fair annual rent for one property was estimated at $141,220 in 1995
and $143,667 in 1998, but the Department only paid $12,000 annually for the
property since 1995. The second property was leased at one-third the estimated
FY 1998 annual rate of $159,387. Thus, the sponsor collected only $53,129
annually since 1998 for this property. In total, the sponsor diverted $995,178 in
lost rental revenue for these two properties from FYs 1995 through 2000.


COST ALLOCATION PLANS
We question $31.4 million of administrative charges the airport paid to the County
from FYs 1995 through 2000, as detailed below.


Exhibit E. Potential Airport Revenue Diversions, Miami-Dade County
                                                                                  15


The County used two different methodologies to charge indirect costs to County
operating departments. The Central Services Cost Allocation Plan (Central
Services plan) recovered indirect costs from sponsoring departments other than the
airport, and the Cost Reimbursement Study (Cost Reimbursement plan) allocated
both direct and indirect costs to the airport. Because the sponsor used
two different allocation methods developed independently of each other, neither
plan recognized costs allocated by the other plan, resulting in a duplicate
allocation of indirect costs.

In FY 1995, Miami-Dade County overcharged the airport $2.4 million of
administrative costs. Also, because of duplicate allocations under two different
plans, we are questioning $17.6 million of indirect costs allocated to the aviation
department from FYs 1995 through 2000. For the 6-year period, the County
allocated its entire indirect costs to County departments through the Central
Services plan, which included sponsor departments other than the airport. In the
same years, the County used the Cost Reimbursement plan to charge the airport
$17.6 million of indirect costs, which were fully allocated under the Central
Services plan.

In addition to the indirect costs, the Cost Reimbursement plan included direct
charges for fire, police, transit and public works services. Because of the apparent
overlapping of the fire and police costs and the lack of supporting documents for
investigative and sheriff services, we are questioning an additional $7.9 million for
fire and police service charges from FYs 1995 through 2000. We identified
three police divisions included in the Cost Reimbursement plan that were
operating units and not supporting units. FAA’s Final Policy states that operating
units must provide evidence of actual service provided to obtain payment from the
airport. We are questioning the cost for these three police divisions because the
sponsor could not provide evidence that the airport received services from the
three divisions commensurate with the charges. From FYs 1995 through 2000,
Miami-Dade County also charged the airport $3.5 million for transit and public
works services off airport property.


PROMOTIONAL EXPENSES
FAA’s Final Policy prohibits the use of airport revenue for promotional or
community activities unrelated to airports or airport systems. We are questioning
nine promotional activities totaling more than $1 million paid from airport revenue
in FYs 1999 and 2000. These activities do not appear to be related to the airport,
or the airport’s share appears excessive relative to the County’s share of the
events’ total costs. The expenses were:




Exhibit E. Potential Airport Revenue Diversions, Miami-Dade County
                                                                                 16


• $60,000 to Caribbean Latin American Conference for Miami Conference on the
  Caribbean;
• $50,000 to Custom Trade Finance Symposium of the Americas for 1999
  Symposium;
• $15,000 to Dade County Day, Inc., for Dade Days in Tallahassee;
• $200,000 to Free Trade Area of the Americas for Miami-Dade host city;
• $200,000 to America’s Trade Mission for America’s Trade Mission Center;
• $100,000 to SER-Jobs for Progress for Job Training Program;
• $350,000 to Office of Protocol, International Trade & Commerce for Sister
  Cities Program;
• $25,000 in FY 1999 to Caribbean Mardi Gras for Carnival 1998 Opa-Locka;
  and
• $53,700 to Orange Bowl Committee for parade floats.

DIRECT PAYMENTS—MIAMI-DADE COUNTY
We are questioning $4.5 million of charges Miami-Dade County assessed the
airport in FYs 1999 and 2000. The questioned charges were inadequately
supported to determine the actual cost of the services provided.


DIRECT PAYMENTS—STATE ROAD
FAA’s Final Policy permits the use of airport revenue for the actual costs incurred
for structures and equipment located entirely on airport property and designed and
intended exclusively for the use of airport passengers. We are questioning
approximately $667,000 paid to Florida Department of Transportation for design
work related to the improvements of a State road, which is outside the boundaries
of the airport and not directly related to or substantially for the benefit of Miami
airport passengers. Similar payments were planned for FYs 2001 and 2002.




Exhibit E. Potential Airport Revenue Diversions, Miami-Dade County
                                                                                                                     17




EXHIBIT F. POTENTIAL AIRPORT REVENUE
DIVERSIONS, WAYNE COUNTY
                     Sponsor of Detroit Metropolitan Wayne County Airport


    Issues                                                                   FYs       Dollars Diverted
    Airport Financial Reports                                                1999-2000     Procedural
    Payments to Sponsor/Other Governments
    --Direct Payments                                                        1999-2000                       $0
    --Cost Allocation Plan—Indirect Costs                                    1996-2000               $1,251,564
    Promotional Expenses                                                     1999-2000                       $0
       Total                                                                                         $1,251,5641

AIRPORT FINANCIAL REPORTS
Wayne County did not include in its financial reports all required disclosures for
compensation the airport received for services and property from other
government agencies. Wayne County did not include revenue from the U.S.
Postal Service and four Wayne County departments.


COST ALLOCATION PLAN–INDIRECT COSTS
Wayne County charged $56,935 a year to the airport for use of County-owned
equipment. We found no records to support the yearly charge. In fact, KPMG
management who prepared the cost allocation plan said the yearly charge was an
error. Unsupported charges for equipment use amounted to $284,675 for FYs
1996 through 2000.

In addition, the sponsor double-billed the airport for legal support costs. Although
the sponsor made adjustments to credit the airport for direct billings in FYs 1998
and 2000, it failed to make the adjustments for FYs 1996, 1997 and 1999. As a
result, Wayne County overcharged the airport $966,889 for legal support from
FYs 1996 through 2000.




1
    During our field work, we found that the U.S. Postal Service occupied 137,400 square feet of airport land but did not
    pay rent from April 1997 to October 2000. Subsequent to our visit, the Postal Service made two payments to the
    airport sponsor totaling $1,949,365 for the balance due. Accordingly, we are not including this amount in the total
    potential airport revenue diversions for Wayne County.


Exhibit F. Potential Airport Revenue Diversions, Wayne County
                                                                                                18




      APPENDIX. MANAGEMENT COMMENTS


                                                     Memorandum
Su    ACTION: Draft Report on Oversight of Airport                   Date:        January 31, 2003
bje
ct:   Revenue, Federal Aviation Administration, Project
      No. 02A9027A000
Fro   Assistant Administrator for Financial                       Reply to
 m:                                                               Attn. of:
       Services/Chief Financial Officer, ABA-1
To:   Assistant Inspector General for Aviation Audits,
       JA-1

      We appreciate this opportunity to respond to the Draft Report on the Oversight of Airport
      Revenue, Federal Aviation Administration (FAA), Project No. 02A9027A000. We are
      also appreciative of the Office of Inspector General’s (OIG) acknowledgment of the
      recent improvements the FAA has made to the Airport Financial Reporting Program
      during the course of the audit.

      We generally concur with the OIG’s interpretation of the revenue use requirements as
      they are discussed in the report, with two exceptions. First, the audit report indicates that
      one potential diversion of airport revenue occurred as a result of Allegheny County, the
      sponsor of the Pittsburgh International and Allegheny County Airports, leasing land to
      the U.S. Army at 76 percent below fair-market value. However, the leasing of land for
      nonaeronautical purposes at below fair-market value to an entity other than the sponsor,
      itself, is not considered revenue diversion. As discussed in FAA’s Final Policy
      Concerning the Use of Airport Revenue, land rental to, or use of land by, the sponsor for
      nonaeronautical purposes at less than fair-rental/market value is prohibited. An airport
      sponsor’s failure to obtain fair-market value for the nonaeronautical use of airport
      property from an entity other than itself is a potential violation of an airport sponsor’s
      Federal obligation to be as self-sustaining as possible.

      Second, the audit report indicates that the city of San Antonio, sponsor of the San
      Antonio International and Stinson Field Airports, leased airport properties to the City’s
      Service Center, Public Works Shops, and Helicopter Station at 50 percent of the fair-
      market value. The report states that FAA’s policy prohibits these rentals at less than fair-
      market value. While we will need to look at issues of revenue use and self-sustaining
      rate structure for all of these leases, FAA policy does not require that an airport sponsor



      Appendix. Management Comments
                                                                                             19


    obtain fair-market value for the aeronautical use of airport property, such as a Helicopter
    Station.

    Following are the FAA’s response to the two recommendations made in the audit report.


    RECOMMENDATION 1:

    Verify the current status of $40.9 million in potential revenue diversions that we
    identified during this review, and, as necessary, seek recoveries of:

•          $252,000 identified at Allegheny County (sponsor of Pittsburgh International and
    Allegheny County Airports),

•           $225,428 identified at the city of Cleveland (sponsor of Cleveland Hopkins
    International and Burke Lakefront Airports),

•           $498,808 identified at the city of San Antonio (sponsor of San Antonio
    International and Stinson Field Airports),

•          $38,710,289 identified at Miami-Dade County (sponsor of Miami International
    Airport), and

•          $1,251,564 identified at Wayne County (sponsor of Detroit Metropolitan Airport).

    Comments:

    Concur. The FAA will conduct investigations into the potential diversions of airport
    revenue identified in the audit report. The FAA will seek recovery by the airport of any
    amounts determined to be unlawfully diverted as a result of our investigations and require
    corrective action to prevent future unlawful diversions.

    Recommendation 2:

    Determine if practices that may have led to diversions at the airports included in
    this review have been corrected, and if not, take actions for the airports recovery
    of any additional funds that were diverted due to those practices since completion
    of our field work.


    Comments:

    Concur. If the FAA determines that the potential diversions identified in the audit report
    are, in fact, unlawful diversions of airport revenue, the FAA will expand the scope of its
    investigation to include the time period between the audit report and the completion of
    the OIG’s audit field work.


    Appendix. Management Comments
                                                                                      20



I trust that our comments fully address the intent of your audit recommendations. If you
have any questions, feel free to contact Wayne Heibeck, Manager of the Airport
Compliance Division (AAS-400), at (202) 267-3446.



Chris Bertram




Appendix. Management Comments
